No. 21-231

In the Supreme Court of the United States
JULIE ELLEN WARTLUFT, f/k/a Julie Ellen Bartels and FREDERICK L.
BARTELS, JR., as Administrators of the Estate of Abrielle Kira Bartels, Deceased,
Petitioners,
v.
THE MILTON HERSHEY SCHOOL and HERSHEY TRUST COMPANY, as
Trustee of the Milton Hershey School Trust,
Respondents.
CERTIFICATE OF WORD COUNT

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Response to Petition for a Writ of Certiorari, which was prepared using
Century Schoolbook 12-point typeface, contains 2,627 words, excluding the parts of
the document that are exempted by Rule 33.1(d). This certificate was prepared in
reliance on the word-count function of the word-processing system (Microsoft Word)
used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ Jarad W. Handelman
Jarad W. Handelman, Esquire
Elliott Greenleaf, P.C.
17 N. Second Street, Suite 1420
Harrisburg, PA 17101
(717) 307-2600
Dated: September 15, 2021
Counsel for Respondents

